Audit Report




OIG-14-025

Management Letter for the Audit of the Office of the Comptroller
of the Currency’s Fiscal Years 2013 and 2012 Financial
Statements

February 4, 2014




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             February 4, 2014


            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audit

            SUBJECT:               Management Letter for the Audit of the Office of the
                                   Comptroller of the Currency’s Fiscal Years 2013 and 2012
                                   Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of the Comptroller of the Currency (OCC) financial statements
            for fiscal years 2013 and 2012. Under a contract monitored by the Office of
            Inspector General, Williams, Adley & Company-DC, LLP (Williams Adley) an
            independent certified public accounting firm (IPA), performed an audit of the OCC’s
            financial statements as of September 30, 2013 and for the year then ended.
            Another IPA audited the OCC’s financial statements as of September 30, 2012 and
            for the year then ended and expressed an unmodified opinion on those financial
            statements. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards and applicable provisions of
            Office of Management and Budget Bulletin No. 14-02, Audit Requirements for
            Federal Financial Statements.

            As part of its audit, Williams Adley issued, and is responsible for, the
            accompanying management letter that discusses certain matters involving internal
            control over financial reporting that were identified during the audit, but were not
            required to be included in the auditors’ reports.

            In connection with the contract, we reviewed Williams Adley’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where Williams Adley did not comply, in all material respects, with
            generally accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Ade Bankole, Manager, Financial Audit at
            (202) 927-5329.

            Attachment
                                                MANAGEMENT LETTER


Comptroller of the Currency
Office of the Comptroller of the Currency

Inspector General
Department of the Treasury

We have audited the balance sheet as of September 30, 2013, and the related statements of net cost,
changes in net position, and budgetary resources for the year then ended, hereinafter referred to as
"financial statements", of the Office of the Comptroller of the Currency (OCC) and have issued an
unmodified opinion thereon dated November 20, 2013. The financial statements of OCC as of
September 30, 2012 were audited by other auditors who issued an unmodified opinion dated October
31, 2012.

In planning and performing our audit of the financial statements of the OCC, we considered its internal
control over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements and not to provide assurance on internal control. We
have not considered the internal control since the date of our report.

In our fiscal year 2013 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses. Although not considered to be material
weaknesses or significant deficiencies, we noted certain matters involving internal control over
information technology operations and the financial institution assessment process that are presented
in Appendix I to this letter for your consideration. These comments and recommendations, all of which
have been discussed with the appropriate members of OCC management, are intended to improve
internal control. Also, we noted one management letter comment that is carried over from the prior
year, as discussed in Appendix II. Additionally, we have provided the status of all prior year
management letter comments in the same appendix.

We appreciate the cooperation and courtesies extended to us during the conduct of the audit. We will
be pleased to meet with you or your staff, at your convenience, to discuss issues in this letter or furnish
any additional information you may require.




Washington, D.C.
November 20, 2013


                                          WILLIAMS, ADLEY & COMPANY-DC, LLP
                                      Certified Public Accountants / Management Consultants
               1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                                       www.williamsadley.com
                                                                                       Appendix I
                                                                             Current Year Findings


Information Technology Operations

Although the OCC performed weekly scans, had a process of identifying vulnerabilities within the
information systems, and developed configuration baseline requirements, weaknesses continued to
exist in the financial system. OCC had identified certain vulnerabilities during its routine scans but
considered them as low to moderate risks. Since only high risk vulnerabilities are addressed as part of
the Plan of Actions and Milestones (POA&M) process, OCC did not address these identified
vulnerabilities.

The OCC Master Security Control Catalog (MSCC) Risk Assessment Section, Control RA-5 states: “The
OCC remediates legitimate vulnerabilities as specified in associated POA&Ms or corrective actions plans
in accordance with an organizational assessment of risk.” However, the MSCC catalog does not specify
what type/level of risk is a legitimate vulnerability and how each category of risk is to be addressed.

Also, for one vulnerability identified, the software vendor confirmed that a conflict exists between the
application and the scanning tool which the vendor states the current setting is necessary as a security
feature.

System weaknesses increase the potential for unauthorized activities to occur without being detected
thus leading to potential theft, destruction, and misuse of agency data both from internal and external
threats.

Recommendations: We recommend that OCC Security & Compliance Services (SCS):

1.   Update the MSCC procedures to:
       a. Define the risk level associated with a legitimate vulnerability, and
       b. Address the handling of identified low to moderate risks vulnerabilities.

2. Remediate the identified vulnerabilities.

Management Response:

The OCC concurs with recommendation #1 and stated that they will update its policy to better define
risk levels and legitimate vulnerabilities. The OCC stated that they will also update its procedures to
provide direction on evaluating and remediating low and moderate vulnerabilities based on a risk
assessment. The OCC estimates completing the corrective actions for this recommendation by January
31, 2014.

OCC stated that they had remediated all the vulnerabilities identified by the auditor related to that
recommendation prior to completion of the audit.

Auditor Analysis:

Based on management’s response, we determined that the proposed approach is sufficient to close the
recommendations if properly implemented.



                                                   2
                                                                                        Appendix I
                                                                              Current Year Findings

OCC's response has not been subjected to the auditing procedures applied in the audit of the financial
statements and accordingly, we express no opinion on it.

Underassessment of Financial Institutions

From March 2009 through March 2013, five financial institutions were under-assessed by a total of
$4,886,926. In September 2013, six financial institutions (including the five mentioned above) were
under-assessed by a total of $863,885. During the periods mentioned above, the financial institutions
were assessed as commercial banks instead of independent trust banks. Independent trust banks are
assessed a surcharge above the commercial bank assessment.

The Licensing Department (within the Office of Chief Counsel) is in charge of providing Financial
Management (FM) with the list of banks and each bank’s assessment category (i.e. commercial bank,
credit card bank, and/or independent trust bank). Each bank is categorized based on the type of assets
they hold. In order for a financial institution to qualify as a commercial bank, a bank’s assets must be
less than 50% trusts. If the bank’s assets exceed 50% trusts, the bank is classified as an Independent
Trust Bank and is therefore subject to a surcharge.

The under-assessed banks were comprised of less than 50% assets in trust when originally evaluated,
however in subsequent assessments periods the trust asset percentage crossed the 50% threshold.
Since, the Licensing Department did not regularly re-evaluate bank classifications, the commercial bank
designation was not revised accordingly.


GAO’s Standards for Internal Control in the Federal Government states that:

        “Control activities are an integral part of an entity’s planning, implementing, reviewing, and
        accountability for stewardship of government resources and achieving effective results. They
        include a wide range of diverse activities such as approvals, authorizations, verifications,
        reconciliations, performance reviews, and the creation and maintenance of related records
        which provide evidence of execution of these activities as well as appropriate documentation.”

        “Transactions should be promptly recorded to maintain their relevance and value to
        management in controlling operations and making decisions. This applies to the entire process
        or life cycle of a transaction or event from the initiation and authorization through its final
        classification in summary records. In addition, control activities help to ensure that all
        transactions are completely and accurately recorded. Internal control and all transactions and
        other significant events need to be clearly documented, and the documentation should be
        readily available for examination.”

Under-assessment of financial institutions occurred because OCC does not have policies and procedures
for periodically reevaluating banks to determine whether their current categorization and thus the
assessment is appropriate.

In October 2013, the Comptroller of the Currency decided to waive the assessment and collection of the
$4,886,296. The September 2013 under-assessment was collected in October 2013 and was



                                                   3
                                                                                       Appendix I
                                                                             Current Year Findings

appropriately included in the FY13 financial statements. Due to this error, assessment fees amounting to
$4,886,926 were not collected that could have been used to fund OCC’s operations.

Recommendation:

We recommend that OCC develop policies and procedures for determining assessment fees including an
annual re-evaluation of banks to confirm or correct their classifications.

Management Response:

The OCC concurs with this recommendation. They stated that they have already established a cross-
disciplinary team with experts to develop a streamlined process for determining assessment fees and
validating the bank assessment classification. Financial Management (FM) will develop the policies and
procedures documenting the process. In addition, FM's Internal Controls team will test the new process
to determine if controls are working as designed. The estimated completion date for the streamlined
process is March 31, 2014 and the estimated completion date for the policies and procedures is April 30,
2014.

Auditor Analysis:

Based on management’s response, we determined that the proposed approach is sufficient to close the
recommendation if properly implemented.

OCC's response has not been subjected to the auditing procedures applied in the audit of the financial
statements and accordingly, we express no opinion on it.




                                                   4
                                                                                       APPENDIX II
                                                                       Status of Prior Year Findings

The following is the status of the remediation of weaknesses noted during the Fiscal Year 2012 audit.
For the purposes of this letter, we included only a summarized version of each issue and the
recommendations made.

12-06 OCC Needs To Strengthen Its Contingency Planning Controls (Repeat Condition)

There were weaknesses in OCC's contingency planning controls. Specifically, (1) an executable disaster
recovery strategy solution did not exist for a general support system (GSS), (2) the contingency plan for
this GSS did not contain detailed procedures for recovering the system in a disaster situation or detailed
procedures for reconstituting the system after a disaster, (3) the contingency plan for an application did
not contain detailed procedures for recovering that application in a disaster situation or detailed
procedures for reconstituting the application after a disaster, and (4) the contingency plans for the
application and the GSS included several links to documents stored on the organizations share site. This
increases the risk that the referenced documents may not be accessible during a disruption that impacts
the network.

Recommendations: OCC management should:
18. Continue with its existing corrective action to develop an executable recovery strategy for its
    network. Once a strategy is developed, it should be tested to ensure that it can be executed
19. Update the Business Impact Assessments for the general support system to establish a RPO for the
    system.
20. Update the system Contingency Plan to incorporate detailed recovery and reconstitution procedures
21. Update the system Contingency Plan to incorporate all necessary documents stored on the share
    site needed to facilitate system recovery.
22. Update the Business Impact Assessments for the application to establish a RPO for the system.
23. Update the application Contingency Plan to incorporate detailed recovery and reconstitution
    procedures.
24. Update the application Contingency Plan to incorporate all necessary documents stored on the
    share site needed to facilitate system recovery.

Status: Partially Closed. OCC addressed the prior year recommendations 22, 23, and 24, which included
updating the contingency plan and the Business Impact Assessments for the application. However,
weaknesses continue in OCC’s general support system contingency planning controls. As a result,
recommendations numbers 18, 19, 20, and 21 remain open.

Management Response:

The OCC concurs with these recommendations. The OCC stated that they are continuing to improve
OCC's ability to recover the network general support system through their enterprise disaster recovery
modernization initiative. They stated that the OCC's Technology Solutions Subcommittee approved this
initiative on July 30, 2013 and that Information Technology Services developed a multi-year project plan
to support modernizing OCC's disaster recovery capability that is contingent on allocation of necessary
funding in future periods. OCC stated that management approved the plan and provided the auditors a
copy during the audit. Further, the OCC estimates corrective actions will be completed no later than
September 30, 2016 for recommendation 18; July 30, 2014 for recommendation 20; August 30, 2014 for
recommendation 21; and January 31, 2014 for recommendation 19.



                                                    5
                                                                                       APPENDIX II
                                                                       Status of Prior Year Findings

Auditor Analysis:

Based on management’s response, we determined that the proposed approach is sufficient to close the
recommendations if properly implemented.



 Prior Year Findings                                      Current Year Status

          OCC should ensure that its Information
 12-01    System Security Plans (SSP) are consistent      This finding has been closed.
          with Federal requirements
          OCC should strengthen its role based
 12-02                                                    This finding has been closed.
          training controls
          OCC should ensure that appropriate
 12-03    agreements are in place to ensure that data     This finding has been closed.
          is adequately protected
          OCC needs to strengthen its identification
 12-04                                                    This finding has been closed.
          and authentication controls
          OCC needs to strengthen its account
 12-05                                                    This finding has been closed.
          management controls
          OCC needs to strengthen its contingency         Partially Closed. See repeat condition
 12-06
          planning controls (Repeat Condition)            above.
          OCC should test the offsite disaster
 12-07    recovery backup tapes on a semi-annual          This finding has been closed.
          basis
          OCC should update its virus definition to the
 12-08                                                    This finding has been closed.
          current version
          OCC needs to strengthen its controls for
 12-09                                                    This finding has been closed.
          configuring information systems
          OCC should maintain current patches and
 12-10    remove unnecessary services from                This finding has been closed.
          application servers
          OCC needs to strengthen its configuration
 12-11                                                    This finding has been closed.
          management controls


OCC's response has not been subjected to the auditing procedures applied in the audit of the financial
statements and accordingly, we express no opinion on it.




                                                    6
